                   U.S. Department of Agriculture

                      Office of Inspector General
                                 Northeast Region




          Audit Report

     Summary of Audit Results
Continued Monitoring of EBT System
 Development - State of New Jersey




                         Report No. 27099-65-Hy
                                      May 2004
                   UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL
                                            Northeast Region
                                              Suite 2-2230
                                    5601 Sunnyside Avenue, Stop 5300
                                     Beltsville, Maryland 20705-5300




DATE:          May 21, 2004

REPLY TO
ATTN OF:       27099-65-Hy

SUBJECT:       Summary of Audit Results
               Continued Monitoring of Electronic Benefits Transfer (EBT) System
               Development - State of New Jersey

TO:            John Chandler
               Acting Regional Administrator
               Mid-Atlantic Region
               Food and Nutrition Service

               Peter Santos
               Deputy Administrator
               Mid-Atlantic Region
               Food and Nutrition Service


This memorandum report presents the results of our audit of the Continued Monitoring of EBT
System Development for the State of New Jersey (NJ). Our objective was to evaluate the
adequacy of controls established to ensure the integrity of the EBT system. We concluded that,
in general, the State’s internal controls were in place and operated as designed. However, our
audit identified opportunities for improvement to include: (1) measures for precluding issuing
excessive numbers of EBT replacement cards to recipients; and (2) strengthening of controls
over EBT system access.

BACKGROUND

The US Department of Agriculture’s (USDA) Food and Nutrition Service (FNS) administers the
Food Stamp Program (FSP) through a joint Federal-State partnership. The Federal Government
pays the full cost of recipient benefits and shares the cost to administer the FSP with the States.
Congress funds the FSP through the direct appropriation of funds. Through this joint
Federal-State partnership, FNS is pursuing EBT implementation by each State for the FSP
nationwide.
John Chandler                                                                                   2


The Food Stamp Act of 1977 (Public Law 88-525) authorized FNS to experiment with alternative
methods for the delivery of FSP benefits using electronic data processing and computer
technology. With this authorization, FNS allowed State agencies to begin issuing FSP benefits
using an EBT system. The Personal Responsibility and Work Opportunity Reconciliation
Act of 1996 (Public Law 104-193), requires all States to implement EBT systems before
October 1, 2002. In NJ, the EBT system is used to issue FSP benefits to recipients. EBT has
eliminated the need for the issuance of food stamp coupons. Instead, benefits are delivered
through the use of the Families First card, a plastic, magnetic–stripe card that is issued to each
recipient.

Public Assistance programs in NJ are State-supervised and county-administered. The Division
of Family Development (DFD) is the State Agency responsible for overseeing programs that
provide assistance in the form of cash, food stamps, and child support to eligible families and
individuals. The DFD is a division of the NJ Department of Human Services.

The State Agency has contracted with eFunds Corp. to provide EBT services. The current contract
became effective on August 15, 1997. The State completed statewide implementation in
June 1999. The current contract extension expires on August 14, 2004.

NJ food stamp benefits totaled $314 million in fiscal year (FY) 2002. Preliminary results for
FY 2003 indicate that approximately 163,000 NJ households received nearly $339 million in food
stamp benefits.

OBJECTIVES

The overall objective of our audit was to evaluate the adequacy of controls established to ensure
the integrity of the EBT system and assess whether the controls functioned as designed. The
audit: (1) identified internal controls established in key operational areas; (2) included tests to
ensure controls were in place and operated as designed; and (3) provided an assessment of the
adequacy of prescribed controls.

SCOPE

The audit was conducted at the FNS Mid-Atlantic Regional Office (MARO) in Robbinsville, NJ,
the NJ DFD in Hamilton Township, NJ, and the Mercer County Board of Social Services in
Trenton, NJ, selected because of its proximity to the DFD in Hamilton Township. The audit
reviewed the controls established to ensure the integrity of the EBT system and assessed its
operation. The audit did not include State Agency certification of recipients for FSP benefits or
FNS Field Office retailer approval functions. Our audit covered the period from January 2002
through June 2003, except for the audit test on replacement EBT cards, which covered the period
since the inception of EBT in August 1997. Our fieldwork was performed during the period April
through August 2003. Audit work was suspended from September through December 2003, due to
congressionally mandated work in another area.
John Chandler                                                                                                                3


The audit was conducted in accordance with generally accepted Government auditing standards.

METHODOLOGY

At FNS MARO, we assessed the adequacy of the oversight of the State’s EBT system by MARO.
We interviewed Regional Office officials regarding their roles and responsibilities in monitoring
the State’s EBT system. We reviewed written guidance provided to the State, EBT system access
by the Regional Office, EBT system reports, waivers to regulations including justifications for the
waivers, program analyses of the EBT system, and financial reconciliations. We reviewed the
Regional Office’s use of the Anti-Fraud Locator Using EBT Retailer Transactions system and
assessed actions taken on identified retailers. We reviewed procedures implemented to ensure that
the Store Tracking and Redemption Subsystem was timely updated with retailer information
changes and determined whether the EBT processor timely updated the EBT system with retailer
authorization information.

At DFD, we reviewed the EBT contract, detail design manual, eFunds’ EBT System Security
Manual, EBT operating rules, EBT policies and instructions, merchant agreements, contracts with
third-party processors, requests for waivers from FNS EBT regulations, other audits and studies of
the EBT system, EBT system complaints, and technical arrangements for Point of Sale
communication with the EBT processor. We performed audit tests on manual transactions, retailer
payments and transactions, financial reconciliations, use of management reports, out-of-State
transactions, handling of stale and expunged benefits, and the conversion of benefits to coupons or
cash when a recipient leaves the State.

At the Mercer County Board of Social Services we reviewed the use of management reports,
restoration of benefits, the conversion of benefits to coupons or cash when a recipient leaves the
State, and the EBT card issuance process.

SUMMARY OF AUDIT ISSUES

1.         NJ Issued Excessive Numbers of EBT Cards

           We found that NJ issued 33,712 excessive1 EBT replacement cards to 5,228 individuals
           since the inception of EBT in the State in 1997. Eleven individuals had been issued 30 or
           more cards during this period. This occurred because the State did not have a policy in
           place requiring counties to interview recipients when they request an excessive number of
           EBT replacement cards, or to charge a replacement fee. We believe that interviewing
           would enhance the State’s services to FSP recipients by identifying and being able to
           address reasons for issuing excessive cards. In addition, a replacement fee would help
           reduce the number of replacement cards issued, and lessen the related administrative costs
           to the State and Federal Government. As a result, we believe that the State may not be

1
    We define excessive as the third and any additional EBT cards issued over the life of the program to an individual recipient
    based on surveys conducted by FNS of States that charge replacement fees.
John Chandler                                                                                        4


           aware of the need for improving such program functions as providing adequate recipient
           training, or identifying indications of potential fraudulent activity. In not charging a
           replacement fee, the State and Federal Government may have incurred increased
           administrative costs, and issued excessive EBT replacement cards.

           Federal regulations2 allow States to charge a fee to replace EBT cards, and the fee is not to
           exceed the cost to replace the card. In our review, we found that 133 States charged such a
           fee to replace an EBT card. In addition, a survey conducted by FNS in 2002, showed that a
           replacement fee would help reduce the number of replacement cards issued. The survey
           also indicated that NJ considered charging a fee.

           Although a State official told us that the cost to replace an EBT card in NJ was ten dollars,
           we believe that this amount would be too high as a replacement fee. Of the 12 States that
           charge replacement fees for magnetic-stripe cards, the fees range from one dollar to five
           dollars. In this regard, we believe that charging a fee for EBT replacement cards in NJ
           could lessen the administrative costs of issuing excessive replacement cards.

           Recommendation No. 1:

           Direct the State Agency to implement a policy for interviewing recipients regarding the
           use of EBT cards when excessive numbers of EBT cards have been issued.

           Agency Response:

           Eight of the eleven individuals mentioned above who were issued 30 or more EBT cards
           are homeless. Homeless individuals consistently have one of the highest card
           replacement rates. Some of NJ’s local agencies already have a policy of interviewing
           individuals who request an excessive number of replacement cards; however, NJ will
           develop and implement a statewide policy for interviewing recipients who have received
           an excessive number of EBT cards.

           OIG Position:

           We agree with the proposed corrective action; however, to reach management decision,
           we need the completion date by which NJ will implement its statewide policy for
           interviewing recipients who have received an excessive number of EBT cards.

           Recommendation No. 2:

           Encourage the State Agency to charge a fee, as allowed in 7 C.F.R. Part 274.12(g)(5)(v),
           when issuing excessive replacement cards to reduce the number of replacement cards

2
    7 C.F.R. Part 274.12(g)(5)(v).
3
    Twelve States use magnetic stripe cards and one State, Ohio, uses smart card technology.
John Chandler                                                                                 5


      issued, and to lessen administrative costs incurred by the State and charged to the Federal
      Government.

      Agency Response:

      NJ has an EBT card replacement fee schedule that was approved by FNS on
      February 14, 1997; however, implementation was delayed at the request of NJ county
      welfare agency directors. The directors requested the delay until the fee process could be
      completely automated so that staff in the county card issuance units would not be
      required to determine the appropriate fee amount, decide whether the fee should be taken
      from the food stamp or Temporary Assistance for Needy Families account (or split
      between them) and then debit the fee from the appropriate account. NJ expects the fee
      process to be fully automated as part of their next EBT contract, which is scheduled to
      begin in August 2004. The replacement card fee process will be implemented subsequent
      to the start of that contract.

      OIG Position:

      We agree with the proposed corrective action; however, to reach management decision,
      we need a completion date by which NJ’s replacement card fee process will be
      implemented.

2.    Controls over Access to the EBT System Need Strengthening

      We found that two accounts for terminated employees remained active for 4 months after
      termination, although we detected no unauthorized access. We identified the two accounts
      when we obtained a listing of State employees that had been terminated during 2002, and
      compared it to the EBT User Access Reports from November 2002 to April 2003. This
      occurred because the State Agency had no policies and procedures for removing system
      access for employees who have terminated employment, or for employees who no longer
      have a continuing need for access. The State relied on the eFunds EBT System Security
      Manual for EBT system security policies and procedures. The Security Manual did not
      address procedures or controls for the State to remove system access for employees who
      have terminated employment and those who no longer have a continuing need. In addition,
      the State did not use the necessary system reports to effectively monitor EBT system
      access. As a result, there is increased risk of unauthorized access to the EBT system.

      Recommendation No. 3:

      Direct the State Agency to develop written procedures to address removing EBT system
      access by terminated employees, or those who no longer have a continuing need for
      access.
John Chandler                                                                               6


       Agency Response:

       Employees of the DFD have “inquiry only” access to the EBT Administrative Terminal,
       and cannot update or change system data. NJ is working with their Office of Information
       Systems (OIS) to develop a procedure for communicating information about separated
       employees to system security administrators, including the EBT Administrative Terminal
       Security Administrator. Currently, employees who leave DFD employment must
       complete and sign a checklist indicating that they have returned all State-issued items.
       Their supervisor must sign the form. Copies are distributed to the Office of Human
       Resources and the OIS. This form will be redesigned to include system applications so
       that OIS will know to terminate access.

       OIG Position:

       We agree with the proposed corrective action; however, to reach management decision,
       we need the completion date by which NJ will implement its procedure for
       communicating information about separated employees to system security administrators,
       including the EBT Administrative Terminal Security Administrator. A completion date
       is also needed for implementation of the redesigned checklist that includes system
       applications so that OIS will know to terminate access.

Please be reminded that Departmental Regulation 1720-1 requires a management decision to be
reached on all findings and recommendations within a maximum of 6 months from report
issuance. If you have any questions or need additional information, please have a member of
your staff contact Rocco LaMonaca, Assistant Regional Inspector General for Audit, at
(301) 504-2104.

We appreciate the assistance you and your staff provided to us during our review.


       //s//

REBECCA ANNE BATTS
Regional Inspector General
  for Audit

Attachments
Attachment

Page 1 of 3
Page 2 of 3
Page 3 of 3
